OFFICE OF INSPECTOR GENERAL



Audit of the African Development
Foundation’s Financial
Statements for Fiscal Years 2005
and 2004
AUDIT REPORT NO. 0-ADF-06-003-C
November 14, 2005




WASHINGTON, DC

Office of Inspector General

November 14, 2005

MEMORANDUM

TO:                  ADF President, Nathaniel Fields 


FROM:                Acting AIG/A, Joseph Farinella 


SUBJECT:	            Report on Audit of the African Development Foundation’s Financial Statements for
                     Fiscal Years 2005 and 2004 (0-ADF-06-003-C)

Enclosed is the final report on the subject audit. We contracted with the independent certified
public accounting firm of Leonard G. Birnbaum & Company, LLP (LGB) to audit the financial
statements of the African Development Foundation as of September 30, 2005 and 2004 and for the
years then ended. The contract required that the audit be performed in accordance with generally
accepted government auditing standards; generally accepted auditing standards; Office of
Management and Budget (OMB) Bulletin 01-02, Audit Requirements for Federal Financial
Statements; and the Government Accountability Office/President’s Council on Integrity and
Efficiency Financial Audit Manual.

In its audit of the African Development Foundation (ADF), LGB found that;

• the financial statements were fairly presented, in all material respects, in conformity with U.S.
generally accepted accounting principles,

• ADF had effective internal control over financial reporting (including safeguarding assets) and
compliance with laws and regulations,

• ADF’s financial management systems substantially complied with the requirements of the
Federal Financial Management Improvement Act of 1996 (FFMIA), and

• no reportable noncompliance with laws and regulations it tested.

In connection with the audit contract, we reviewed LGB’s report and related documentation.
Our review, as differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to express, and we do not
express, opinions on ADF’s financial statements or internal control or on whether ADF’s
financial management systems substantially complied with FFMIA; or conclusions on
compliance with laws and regulations. LGB is responsible for the attached auditor's report
dated October 26, 2005 and the conclusions expressed in it. However, our review disclosed no
instances where LGB did not comply, in all material respects, with applicable standards.


U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
The report does not contain recommendations. ADF comments to the auditor’s report are
included in Appendix I.

The OIG appreciates the cooperation and courtesies extended to our staff and to the staff of
LGB during the audit. If you have questions concerning this report, please contact Andrew
Katsaros at (202) 712-4902.
CONTENTS

Message from the President .......................................................................................... 1 


Management’s Discussion and Analysis...................................................................... 5 


Independent Auditor’s Reports ................................................................................... 27 


Financial Statements


    Balance Sheets ......................................................................................................... 33 


    Statements of Net Cost ............................................................................................. 34 


    Statements of Changes in Net Position .................................................................... 35 


    Statements of Budgetary Resources ........................................................................ 36 


    Statements of Financing ........................................................................................... 37 


    Notes to the Financial Statements ............................................................................ 38 


Appendix I - Management Comments......................................................................... 46 

African Development Foundation
Message from the President

The United States Congress established the African Development Foundation (ADF) in 1980 as an
independent public corporation with a mandate to promote the participation of Africans in the
economic and social development of their countries. For more than 20 years, ADF has helped
grassroots groups and individuals in Africa help themselves by providing the resources they need to
advance their own efforts to promote economic and social development.

ADF’s enabling legislation makes clear the intent of Congress to establish a federal agency
specifically focused on the needs of Africa:

In order to enable the people of African countries to develop their potential, fulfill their aspirations,
and enjoy better, more productive lives, the purposes of the Foundation shall be -
    • to strengthen the bonds of friendship and understanding between the people of Africa and the
       United States;
    • to support self-help activities at the local level designed to enlarge opportunities for
       community development;
    • to stimulate and assist effective and expanding participation of Africans in their development
       process; and
    • to encourage the establishment and growth of development institutions which are indigenous
       to particular countries in Africa and which can respond to the requirements of the poor in
       those countries.

The legislation continues with the requirement for ADF to work “in cooperation with, and in
response to, organizations indigenous to Africa which are representative of the needs and aspirations
of the poor in Africa.” ADF meets this mandate by providing small grants of $250,000 or less to
private and other nongovernmental entities in Africa. The goal of these grants is to:

       •   finance sustainable poverty alleviating initiatives that are conceived, designed, and
           implemented by Africans and aimed at enlarging opportunities for community
           development;
       •   stimulate and expand the participation of Africa's poor in the development of their
           countries; and
       •   build sustainable African institutions that foster grassroots development.

The principal aim of ADF's grants is to enable grassroots groups to generate increased incomes
through productive enterprises that expand the overall economic production capacity and increase
the economic security of their families and communities.
A Unique Approach

ADF believes that local communities are a vital source of ideas and energy for development. The
Foundation makes grants directly to African enterprises and non-governmental organizations; none
of its resources pass through government agencies or international organizations. ADF has been a
pioneer in promoting participatory development. All ADF-funded projects are "made in Africa" -
proposed, designed, and implemented by the beneficiaries themselves, with any needed technical
assistance and training provided entirely by local experts. ADF's participatory development
approach builds local capacity and promotes self-help by unleashing entrepreneurial spirit and
mobilizing community resources. ADF's efforts complement larger, government-to-government
assistance programs by tackling problems "from the ground up" and developing new models of
participatory development that can be replicated on a larger scale by other grassroots groups and
communities, local and international private sector entities, and other development assistance
agencies.

The Role of Partnership in Expanding ADF's Program Impact

The unique approach and high impact of ADF’s work is recognized in strategic partnerships with
African governments, other donors, and the private sector. These innovative partnerships serve as
vital sources of capital and technology to expand the impact of our program and to disseminate and
replicate some our rich lessons learned and best practices about grassroots, participatory
development.

In FY 2005, ADF had completed a total of ten strategic program alliances with African
Governments (three more than the previous year). An additional four are currently under
negotiation, and seven more are planned for FY 2007. Furthermore, ADF leveraged $2.4 million in
contributions from five national governments and one state government in Africa in FY 2005
(Botswana, Cape Verde, Ghana, Kano State in Nigeria, Swaziland, and Zambia).

FY 2005 Highlights

FY 2005 was a very successful year for ADF. In addition to expanding its strategic partnerships,
ADF showed real results in the following areas:

   •   Total portfolio of 221 ongoing development projects in 16 countries with a total budget of
       $42.2 million.
   •   Seventy-nine new development projects and project amendments amounting to $11.3 million
       in 16 countries.
   •   Began operations in Rwanda and Zambia.
   •   Supported projects that export a wide variety of products including fresh and processed fish,
       fresh and dried fruits, vegetables, salt, fruit jams and juices, nuts and oils, tea, coffee,
       processed grains, sugar, and vanilla.
   •   Helped build the capacity of local development assistance organizations through cooperative
       agreements for promotion of sustainable, grassroots development in 13 countries.
I am pleased to introduce ADF’s FY 2005 financial statements, which have been prepared in
accordance with the Office of Management and Budget (OMB) requirements and all other applicable
laws and regulations. With unqualified opinions on all five financial statements for several years in
a row, ADF continues to demonstrate its commitment to sound financial management and
accountability to its many stakeholders both in the U.S. and Africa.




Nathaniel Fields
President
   AFRICAN DEVELOPMENT FOUNDATION

PERFORMANCE AND ACCOUNTABILITY REPORT

             FISCAL YEAR 2005 





    Leonard G. Birnbaum and Company, LLP 

             6285 Franconia Road 

            Alexandria, VA 22310             

                (703) 922-7622               

                    MANAGEMENT'S DISCUSSION AND ANALYSIS 


The African Development Foundation's (ADF) mission is to support community-led, demand-
driven development in Africa and generate best practices for grassroots African development that
are sustainable and replicable. ADF accomplishes this mission by providing funding to
nongovernmental organizations (NGOs) and small enterprises that help these local entities invest in
their communities and become self-sustaining.

ADF is a unique organization that supports projects of $250,000 or less. These projects are
conceived, designed, implemented and managed by local NGOs and small businesses throughout
sub-Saharan Africa. The Foundation was established as a federal agency and public corporation
by the African Development Foundation Act of 1980, and it began active program operations in
1984. Since that time ADF has funded more than 1600 projects across Africa.

Foundation grants help African NGOs and small businesses:

•	 Develop viable micro enterprises and small enterprises that generate higher incomes, new
   jobs, and higher rates of self-employment in some of Africa’s poorest communities;
•	 Achieve the capacity to tap regional and international market opportunities;
•	 Build self-supporting, sustainable, local community development agencies;
•	 Promote community based interventions that mitigate the social and economic impact of
   HIV/AIDS; and
•	 Strengthen democratic values and institutions at the local level.

ADF practices a thorough, three-stage grant review process that includes detailed reviews of:

   1.	 initial applications and applicant project sites,
   2.	 project concept papers, and
   3.	 final project papers that include clearly structured implementation plans and full budgetary
       and financial analyses.

Most of ADF's grants are greater than $50,000, and the maximum grant value is normally
$250,000. Grants larger than $250,000 require special approval from ADF’s Board of Directors.
To help enhance the impact of its funding, ADF often assists its beneficiaries in leveraging
grants, loans, and loan guarantees from other sources. This enhancement is accomplished through
strategic partnerships with national and regional governments in Africa, national and regional
development banks, other international development assistance agencies, and private sector
entities.

Unlike most development agencies, ADF works directly with African producer groups and
nongovernmental organizations. The Foundation does not channel any of its resources through
governments. All ADF-funded projects are initiated by the enterprise or community groups.
Rather than designing projects on behalf of its grantees, ADF works with the local partner
nongovernmental organizations (NGOs) to help applicants define and acquire the assistance they
need to achieve project goals. The Foundation's participatory approach to development ensures
local ownership and strong local participation. This approach has been shown to enhance the
impact and sustainability of ADF’s investments.

                                                5

ADF is currently administering more than 221 projects in sixteen countries:


Benin                    Namibia                       Tanzania
Botswana                 Niger                         Uganda
Cape Verde               Nigeria                       Zambia
Ghana                    Rwanda                        Zimbabwe
Guinea                   Senegal
Mali                     Swaziland


HIGHLIGHTS OF FY 2OO5 RESULTS

   •	 In FY 2005, ADF had 221 ongoing development projects in 16 countries with a total
      budget of $42.2 million. During the year, ADF funded 79 new development projects and
      project amendments amounting to $11.3 million in 16 countries. ADF began operations
      in Rwanda and Zambia.

   •	 In FY 2005, ADF supported projects that export a wide variety of products including
      fresh and processed fish, fresh and dried fruits, vegetables, salt, fruit jams and juices, nuts
      and oils, tea, coffee, processed grains, sugar, and vanilla.

   •	 In FY 2005, ADF had completed a total of ten strategic program alliances with
      African Governments (three more than the previous year). An additional four are
      currently under negotiation, and seven more are planned for FY 2007.

   •	 ADF leveraged $2.408 million in contributions from five national governments and one
      state government in Africa in FY 2005 (Botswana, Cape Verde, Ghana, Kano State in
      Nigeria, Swaziland, and Zambia).

   •	 ADF helped build the capacity of local development assistance organizations through
      cooperative agreements for promotion of sustainable, grassroots development in 13
      countries.


PROMOTING INNOVATIVE TRADE AND INVESTMENT

For the past several years, the African Development Foundation has been piloting exciting
investments that promote new export trade and investment (T&I) opportunities for small-scale
African businesses and agricultural cooperatives. The focus of these efforts is to identify and
promote nontraditional export crops and existing small-scale manufacturers or processors and to
help these enterprises improve production and productivity and successfully move their products
into regional and international markets. The African Growth and Opportunity Act of 2000
(AGOA) specifically recognized the important role of ADF in helping to integrate small-scale
producers at the grassroots level into the global economy.


                                                  6

ADF has ongoing T&I programs in Uganda, Tanzania, Zimbabwe, Namibia and Ghana focused
on assisting small-scale producers with their efforts to grow, process and export a variety of
primary commodities, including paprika, vanilla, silk, Nile perch, rock lobster, leather products,
fruit juices, and sea salt. In addition, the Foundation is currently launching new T&I programs in
Zambia and Cape Verde, and later this year will initiate programs in Nigeria. Most of these eight
programs involve co-funding contributions from African governments, and they leverage capital
or technical assistance from the private sector. ADF conducts rigorous financial analyses and
market surveys as part of the design and approval process, similar to what a venture capital firm
would undertake to fund an activity. The Foundation also develops and tests models for
transferring technology to small producers.

These highly successful endeavors are proving that small African enterprises and African
farmers can diversify into new commodities, meet international standards, and successfully
compete in the global economy.


STRATEGIC PARTNERSHIPS

Under its new corporate strategy, the Foundation has set an objective to “establish strategic
partnerships with national and local governments, other donor agencies, and the local private
sector, to support sustainable, grassroots development.” Toward this end, ADF is building
innovative partnerships that can serve as vital sources of capital and technology to expand the
impact of ADF’s program and disseminate and replicate lessons learned and best practices for
grassroots development.

The Foundation began strategic partnerships several years ago. The initial focus has been on
leveraging contributions from national and state governments. ADF is now expanding its efforts
to attract contributions from international and African corporations. In all these programs, the
Foundation maintains and promotes its core values – accountability, sustainability, innovation,
and a commitment to building up grassroots-based and African-owned investments. ADF is
wholly responsible for ensuring accountability for funds, program implementation, and
achievement of targeted results. At the end of FY 2002, ADF had three active strategic
partnerships. By the end of FY 2005, that number had expanded to nine, with agreements in
place with Benin, Botswana, Cape Verde, Ghana, Mali, Nigeria, Sao Tome, Senegal, Swaziland,
and Zambia. ADF is currently negotiating agreements with Burkina Faso, Guinea, Kenya and
Niger; in FY 2007, it expects to implement partnerships in Angola, Burundi, Congo, Namibia,
Rwanda, Tanzania, and Uganda. These important partnerships provide as much as fifty percent of
the funding for a grant and are a hall mark of the ADF model, realizing significant returns for every
dollar invested by the American taxpayer.

These partnerships are forged with the recognition that ADF’s approach is both unique and
effective, as captured by the comments of Zambian President Levy Mwanawasa: “Appreciating
the grassroots work and the activities that the African Development Foundation supports…I
know very well that such support to Zambia would be significantly very beneficial to our
people.”

Based on discussions the Foundation has already had with other governments, as well as with

                                                  7

large corporate entities seeking to fund philanthropic activities, there is an unmet demand for
ADF’s support and great potential for additional strategic partnerships.


STRENGTHENING PROGRAM OPERATIONS

The Foundation has undertaken a major restructuring of both its headquarters and field
operations during the past two and a half years to strengthen program operations. These
fundamental changes, which have resulted in some transitional costs, are being driven by ADF
management’s objectives of improving program effectiveness, protecting U.S. government
resources, and containing long-term costs.

   •	 A restructuring of ADF/Washington will help the Foundation improve the timeliness and
      effectiveness of portfolio management.

   •	 ADF is ensuring better due diligence and compliance through its placement of in-country
      representatives.

   •	 Through its Partner Organizations in country, applicants and grantees receive the
      necessary support to develop and implement a project.


The Partner Organization assists prospective grantees in developing proposals for funding and
conducts rigorous financial analyses to ensure the viability and sustainability of proposed
projects. After ADF awards a project grant, the Partner Organization provides training in
financial management and participatory evaluation to the grantees. It visits them to monitor
progress and assist in rectifying implementation problems, and advises them on preparation of
quarterly financial and progress reports.

The Country Representative reports to ADF/Washington and is independent of the Partner
Organization. While the Partner Organization supports grantees, the Country Representative
carries out functions that support ADF. Their principal duties include analyzing the viability of
proposals, conducting due diligence on prospective grantees, assessing the financial management
capacity of new grantees, reviewing their use of funds throughout the life of the grant,
monitoring project implementation and remediation, and assessing program impact.

With this new field structure, ADF undertook a reduction-in-force to reduce and realign the
headquarters staffing in FY 2004. The Foundation decided to give greater attention to project
analysis, financial management, portfolio management, technical support for trade and
investment and HIV/AIDS programs, developing and implementing strategic partnerships,
assessing program impact, disseminating lessons learned and best practices, and strengthening
outreach. While the Foundation is optimistic that the new structure will improve efficiency and
effectiveness over time, the Foundation has incurred significant costs in making the transition in
FY 2003 and 2004.

ADF launched two new online publications during FY 2004, ADF e-News and The ADF
Approach. ADF e-News provides detailed information on new ADF grants as well as updates on

                                                 8

project performance. It is disseminated via links to the main page of ADF's website and through
an e-mail subscription list that has more than 1,700 recipients. ADF e-News produced 31
articles on ADF projects in the four issues published in FY 2004. In September of 2004, the
development journal Appropriate Technology asked ADF for permission to reprint articles.
ADF also contracted with a private design firm at the end of the year to make the Foundation's
website a more engaging and information-rich resource for potential grantees, other development
assistance agencies, and the general public.



STRENGTHENING FINANCIAL MANAGEMENT AND INFORMATION SYSTEMS

The African Development Foundation has greatly strengthened its own financial management
and that of its grantees. It has also improved its management information systems for
headquarters operations and grants administration. ADF takes its fiduciary responsibilities very
seriously. Despite the nascent capacity of many of its grantees, the Foundation maintains high
standards of financial accountability.

   •	 In an initial screening process, ADF’s Country Representatives assess the applicant’s
      capacity to control and account for funds and identify areas where additional training or
      personnel are required.

   •	 All development project grantees are required to submit quarterly financial reports and
      progress statements. Grantees with MSE, MFI, and T&I projects are also required to
      submit quarterly financial statements.

   •	 After a grant is approved, the Partner Organization provides a five-day training course in
      ADF accounting procedures and reporting requirements.                  Each of the Partner
      Organizations has a full-time, experienced Financial Officer on staff that provides this
      initial training, as well as refresher training and advice, as needed by grantees.

   •	 The Country Representative monitors the reporting by grantees and also makes regular
      site visits to check project accounting as well as to monitor overall implementation
      progress.

   •	 Finally, ADF contracts with independent audit firms in each country where it operates to
      conduct audits of each grant over $50,000 at least once during its life.


ADF also maintains financial oversight of all Partner Organizations that have cooperative
agreements with the Foundation. An internal audit of each Partner Organization is conducted
every year. ADF undergoes annual, independent audits that address its financial statements,
internal controls, and compliance with USG laws and regulations. For the past three years, the
Foundation has received an unqualified opinion on all five financial statements, from its
independent auditors and the USAID Office of the Inspector General. Thus, the Foundation is in
full compliance with all OMB requirements and new statutes, including the Accountability for
the Tax Dollar Act. These are major accomplishments.

                                                9

To further strengthen its financial management, ADF negotiated an interagency agreement with
Department of Interior’s National Business Center to provide full system support utilizing the
USG-approved, Oracle Federal Financials. This will ensure the integrity of ADF’s financial data
and produce timely reports to assist management in key decisions on the Foundation’s financial
operations. With implementation fully completed in FY 2005, the financial statement audit for
this year has been conducted using information generated by Oracle Federal Financials. This is a
major accomplishment and represents a significant improvement in ADF’s financial management
capabilities.

Finally, ADF has a comprehensive grants database to improve management oversight and
internal controls for financial reporting by grantees and Partner Organizations. ADF is using the
database to support its year-end financial statements.

SUMMARY OF PROGRAM PERFORMANCE AND TRENDS

ADF sets most of its performance targets each year based on the actual achievements in the
most recent prior year available and the ratio of the projected cumulative disbursements for
active projects in the reporting year to those of the prior year. This is a reasonable approach to
setting aggregated portfolio targets, but it assumes that the composition of projects by strategic
objective remains unchanged from one year to the next. However, the actual proportions of
ADF funds disbursed for projects with strategic objectives vary a lot from year to year.
Because of these differences in the composition of the portfolio across years, ADF may exceed
impact targets for some strategic objectives while falling below targets for other strategic
objectives. The internal performance targets that ADF set for leveraging funding contributions
through strategic partnerships were not based on prior year performance and were set at a very
ambitious level. The information presented in this summary of program performance and trends
is for FY 2004, the most recent year for which we have annual data.

Table 1 summarizes the FY 2004 program results against ADF’s internal targets. In general, the
FY 2004 targets were higher than the FY 2003 targets. ADF exceeded nearly all of its targets
for program impact by far. The achievements for enterprises assisted, owners and workers in
the assisted enterprises, women owners and workers, value of loans disbursed, export revenues,
people receiving AIDS prevention training, and women receiving AIDS prevention training
were 133% to 187% of the targets. The active projects generated very slightly less gross
revenue than planned (1.3 percent). One reason why is that exchange rate fluctuations are out
of ADF’s control and make it difficult to set targets in US dollars.

Table 2 compares ADF’s performance results over the past 4 years. The performance results in
any given year depend on the number of active projects, the average amount of funding that has
been disbursed in the projects, the mix of ADF strategic objectives that the projects address, the
performance of the individual projects, and the level of resources ADF has devoted to collecting
performance data for the year. ADF’s new program obligations in FY 2004 were $14.720
million.

Most of ADF’s new program obligations in a year do not lead to grant disbursements until the
following year. Disbursements may continue for four or five years, but a large share of the total


                                                 10 

disbursements for a project are typically released by the end of the third year of the project.
Initial project impacts tend to follow disbursements with a lag time of six to twelve months. The
impact tends to grow faster in subsequent years, reaching a maximum in the fifth year of the
project. Consequently, the performance results reported in FY 2004 are mainly an outgrowth of
ADF disbursements from FY 1999 to FY 2003, which correspond to ADF program obligations
from FY 1998 to FY 2002.




                                                11 

TABLE 1. Summary of FY 2004 Performance Against Targets (Cumulative Figures for
Active Projects With Significant Disbursements)1

    Performance Indicator                  FY 2004                       FY 2004     Percent of Target
                                         Performance                   Performance       Achieved
                                          (Planned)                      (Actual)
Enterprises assisted                             70,500                       95,176           134.9%
Owners and workers in                            79,200                      115,827           146.2%
assisted enterprises
Women as a percent of        Minimum of 50%         At least 69.0%    At least 138.0%
owners and workers2
Value of loans disbursed        $9.194 million     $17.250 million             187.6%
to MSEs
Percent of loans disbursed Minimum of 50%           At least 73.2%    At least 146.4%
to women
Gross revenue of assisted      $43.697 million     $43.485 million              99.5%
enterprises and
organizations
Export revenues                 $6.210 million     $21.530 million             347.0%
People receiving                      224,100              320,509             143.0%
HIV/AIDS prevention
training
Women as a percent of        Minimum of 50%                 66.7%2            133.4%2
those receiving
HIV/AIDS training
Countries with ADF                          15                   13             86.7%
support for building the
capacity for
nongovernmental partner
organizations
Number of strategic                          -                    6                  -
partnerships for
leveraging funding
contributions
Funding contributions           $5.000 million      $2.704 million              54.1%
leveraged
1 Cumulative refers to the period from the starting date of the ADF project through the end of
FY 2004
2 The actual proportion of assistance to women is substantially higher because when gender-
disaggregated data were not available, it was assumed that all beneficiaries were men to ensure conservative, lower-bound
estimates of women beneficiaries.


1
 Cumulative refers to the period from the starting date of the ADF project through the end of FY 2004.

2
 The actual proportion of assistance to women is substantially higher because when gender-disaggregated data were not
available, it was assumed that all beneficiaries were men to ensure conservative, lower-bound estimates of women beneficiaries.



                                                                12 

TABLE 2. Performance Result Trends, FY 2001 to FY 2004 (cumulative numbers for
active projects)

Performance                    FY 2001                   FY 2002                  FY 2003                  FY 2004
Indicator
Enterprises Assisted           47,049                    86,180                   80,946                   95,176
Owners and Workers             36,457                    96,854                   112,802                  115,827
in Assisted
Enterprises1
Women as a Percent of          56.8%                     58.1%                    48.2%                    75.6%
Owners and Workers
in Assisted
Enterprises2
Enterprises With               54,099                    65,319                   67,893                   84,925
Loans3
Value of Loans                 Indicator not in                                   $15.127                  $17.250
Disbursed                      use                       $11.243 million          million                  million
Proportion of Loans            50.8%                     60.6%                    61.8%                    73.2%
for Women4
People Receiving               66,126                    Indicator                Indicator                Indicator
Business Management                                      discontinued             discontinued             discontinued
Or Technical Training5
Women as a Percent of          26.3%                     Indicator                Indicator                Indicator
People Receiving                                         discontinued             discontinued             discontinued
Business Management
Or Technical Training5
Gross Revenues of              $17.457                   $53.440 million          $28.830                  $43.485 million
Enterprises and credit         million                                            million
providers6

Net Income Of                  $10.528                   $14.611                  $6.369                   $8.807
Grantees (including            million                   million                  million                  million
credit providers)6
1
 Unless actual data were available from grantee records or surveys to support higher numbers, the most conservative assumption
was adopted -- that there was one owner/worker per enterprise assisted. The actual number for many projects is likely to be
substantially higher than the reported number.
2
 In the absence of information on the gender of the owners and workers, the proportion of women beneficiaries was assumed to
be zero. The actual proportion of women beneficiaries is likely to be substantially higher.
3
 In FY 2001, the indicator tracked the number of loans, rather than the number of enterprises receiving loans. Since
microfinance projects typically provide multiple loans to an enterprise, the current indicator produces lower numbers than the
previous indicator and is a more meaningful measure of program outreach.
4
 This indicator was modified from the proportion of the number of loans that went to women to women’s proportion of the total
value of loans, which is a better measure of gender equity.
5
 This indicator was discontinued since it is not a measure of program results.
6
  In FY 2002, the gross and net income of the client enterprises assisted by microfinance grantees were estimated in two
countries by extrapolation from sample surveys and this made a huge difference in the numbers. In FY 2003, ADF did not
report the income of microcredit clients in any countries because it did not have new survey data on the grantees’ client
enterprises in these projects. In FY 2004, these indicators were defined more narrowly to only include the grantees and not their
client enterprises.


                                                                 13 

TABLE 2. (Continued)

Performance                   FY 2001                FY 2002                       FY 2003                    FY 2004
Indicator
Trade and Investment
Export Products               4                      19                            Indicator                  Indicator
Promoted1                                                                          discontinued               discontinued
New Production and            18                     Indicator                     Indicator                  Indicator
Export Trade                                         discontinued                  discontinued               discontinued
Arrangements
Established2
Gross Revenues From           Indicator not in       $7.594                        $12.027                    $21.530
Export Sales                  use                    million                       million                    million
AIDS Prevention and
Mitigation
People Receiving              35,483                 274,041                       282,089                    320,509
AIDS Prevention
Training
Women as a Percent of         57.0%3                 66.8%                         64.9%                      66.7%
People Receiving
AIDS Prevention
Training3
Local Capacity To
Promote Grassroots,
Participatory
Development
Partner Development           14                     13                            13                         13
Agencies Assisted
Host Governments or           2                      4                             1                          6
Major Donors
Providing Funding for
Strategic Partnerships
With ADF
Funds Leveraged               $0.364                 $1.104 million                $0.455                     $2.704
Through Strategic             million                                              million                    million
Partnerships
1
This indicator was discontinued as a quantitative performance measure since a larger number is not necessarily better than a
more focused program and there were inconsistencies in whether grantees lumped similar products together or split them into
more specific categories.
2
 This was discontinued as a quantitative performance measure since a larger number is not necessarily better and there were
definitional issues about what constitutes a new production or export trade arrangement.
3
 To produce a conservative estimate of gender equity, it was assumed that all of the beneficiaries were men if no gender-
disaggregated data were available. The actual proportion of women among these beneficiaries is likely to be substantially higher
than reported.




                                                               14 

ADF’s GOALS, OBJECTIVES, AND PERFORMANCE RESULTS BASED ON THE FY
2004 STRATEGIC PLAN

Goal 1: Advance Broad-Based, Sustainable Development and Empowerment of the Poor in
        Africa
Objective 1. Promote micro and small enterprise development that will generate income and
employment
Increasing the productivity and profitability of micro- and small-enterprises (MSEs) is critical for
broad-based economic growth and poverty alleviation. These enterprises are important sources of
income, employment, and empowerment for the poor, particularly for women and other
disadvantaged groups. In times of economic distress, MSEs become even more vital as a safety
net for producers and an affordable supply of consumer goods for low-income people.

ADF helps transform the tremendous untapped entrepreneurial potential of Africans into fuel for
economic and social development. ADF helps small African businesses overcome the common
constraints MSEs face in expanding production, improving quality, and increasing value-added
by:

   •	 Providing direct capital infusions to individual enterprises and strengthening micro-
      finance institutions;

   •	 Providing access to improved technologies;

   •	 Strengthening the skills of management and workers; and

   •	 Improving access to information on better production methods and marketing.

ADF helps applicants develop their proposals into business plans with full financial analyses,
market assessments, marketing strategies, training plans, and implementation plans. ADF only
funds MSEs that have good prospects for becoming profitable and sustainable by the end of the
grant period. ADF can provide MSE grantees with support directly or through microfinance
institutions, cooperatives, producer associations, and other intermediary organizations. Once a
project is funded, ADF provides assistance in implementation, upgrading of management
information systems, monitoring, and reporting through its network of non-governmental Partner
Organizations in Africa. More specialized, African technical service providers are brought in
where necessary. Table 3 shows the performance results for the MSE and MFI projects.


Objective 2. Increase participation of African grassroots enterprises and producer groups in
trade and investment relationships with the United States and within Africa

The increasingly integrated global economy presents unprecedented opportunities for broad-
based increases in incomes through greater participation in the international economy. To
achieve broad-based income and employment gains at the grassroots level through trade, small-
scale producers need to be actively involved in further processing and higher-level marketing of
products. They often need assistance to increase their volume or quality of production and gain

                                                 15 

access to value-added processing and more profitable marketing arrangements.

The African Growth and Opportunity Act of 2000 (AGOA) specifically noted the important role
of ADF in developing and implementing strategies for promoting participation of small-scale
enterprises and informal sector groups such as farmer cooperatives and artisans in trade and
investment activities. ADF provides capital and technical and managerial assistance to enable
small- and medium-scale producers take advantage of new opportunities for trade and investment
(T&I). ADF’s activities in support of AGOA include

   •	 Promoting the adoption of high-value, non-traditional crops by small-scale farmers;

   •	 Establishing or increasing local processing or manufacturing to add value to primary
      products;

   •	 Enabling small- and medium-sized processors and manufacturers to begin or expand
      export production;

   •	 Helping producers scale up the quantity and improve the quality of production to meet
      specifications of export buyers;

   •	 Creating new export marketing linkages for regional or world trade; and

   •	 Increasing their effectiveness in advocating changes in government policies that impede
      trade and investment, where necessary.


To make export production that benefits low-income producers more feasible, ADF often works
with producer associations or cooperatives that bulk up the production of small-scale producers
and carry out processing and/or marketing activities on their behalf. Producer associations and
cooperatives can channel other support to small-scale producers effectively; for example lower
cost production inputs through bulk purchases, extension services, market and price information,
and greater bargaining power in price negotiations. Table 4 shows the performance results for
the T&I projects. Table 5 lists the products that were exported by these projects.




                                               16 

TABLE 3 – Micro- and Small-Enterprise and Microfinance Performance Against Key Indicators
(Cumulative figures for Active Projects With Significant Disbursements)1


     Performance           FY          2004                          FY          2004 Percent of Target
     Indicator             Performance                               Performance      Achieved
                           (Planned)                                 (Actual)
     Enterprises assisted 70,500                                     95,176           135.0%
     Owners and workers 79,200                                       115,827          146.2%
     in           assisted
                2
     enterprises
     Women as a percent Minimum of 50%                               69.0%                      At least 138.0%
     of     owners     and
     workers3
     Value of loans $9.194 million                                   $17.505 million            190.4%
     disbursed to MSEs
     Percent of loans Minimum of 50%                                 At least 73.6%             At least 147.1%
     disbursed          to
             3
     women
     Gross revenue of $43.697 million                                $43.485 million            99.5%
     assisted enterprises
     and organizations

1
 Cumulative refers to the period from the starting date of the ADF project through the end of FY 2004.

2
 To ensure that estimates are conservative, unless there was actual data on number of owners and workers per enterprise from
surveys or grantee records, only one owner/worker was assumed per enterprise. The actual number of owners and workers is
likely to be substantially higher than this.

3
 To ensure conservative, lower-bound estimates of women beneficiaries e, it was assumed that all of the owners and workers
were men when gender-disaggregated data were not available. The actual proportion of women among ADF’s beneficiaries is
higher than reported.


TABLE 4 – Trade and Investment Performance Against Key Indicators (Cumulative figures for
Active Projects With Significant Disbursements)1

     Performance                      FY             2004 FY            2004 Percent of Target
     Indicator                        Performance         Performance        Achieved
                                      (Planned)           (Actual)
     Export revenues                  $6.210 million      $21.530 million    347.0%


1
 Cumulative refers to the period from the starting date of the ADF project through the end of FY 2004.




                                                                17
TABLE 5. Products Exported by Active Projects in FY04

Beef, frozen, vacuum-packed                            Fonio millet, processed with peanut butter
Behind-the-ear hearing aids                            Fruit, fresh
Butter                                                 Hides, cattle
Ceramics, decorative                                   Hides, ostrich
Citronella tea bags                                    Millet flour
Clothing, cut, measured, and trimmed                   Millet, precooked
Couscous with milk                                     Ostrich meat
Couscous with spinach                                  Paprika, whole dried peppers
Djouka, dried                                          Pineapple, dried
Dyed bazin (tie-dyed cotton fabric)                    Rock lobster, frozen tails
Dyed bazin with embroidery                             Rock lobster, live
Fish, cleaned sole                                     Rock lobster, whole frozen
Fish, mullet roe                                       Salt
Fish, Nile perch, chilled fillet                       Silk, reeled
Fish, Nile perch, frozen                               Solar chargers for hearing aids
Fish, tilapia, chilled fillet                          Sugar
Fish, tilapia, frozen fillet                           Vanilla, cured
Fonio millet (Digitaria spp.), precooked               Vegetables, fresh (snow peas and others)

Objective 3. Promote innovative community-based interventions to remediate the
economic and social impact of HIV/AIDS and reduce its spread

Sub-Saharan Africa is, by far, the region most critically affected by HIV/AIDS. At the end of
2003, between 25.0 and 28.2 million people in the region were living with HIV/AIDS (between
61 and 74 percent of the world’s total). Approximately 3.2 million people in Sub-Saharan Africa
were newly infected during the year. During the year, the disease killed 2.3 million people in the
region. Over 11 million children below the age of 15 have lost at least one parent to AIDS and
this number is expected to increase to 20 million by 2010.

Since AIDS prevention is more cost effective than treatment and mitigation, educational efforts
to reduce the spread of the disease are important in all countries. Most efforts by donors,
governments, and NGOs have focused on prevention activities in large urban areas. By contrast,
most of ADF’s support for AIDS prevention is concentrated on rural areas and small towns that
have been underserved.

ADF began including a small HIV/AIDS education and prevention component in many of its
MSE and micro-credit projects around the beginning of the decade. Then in FY 2002, the
Foundation initiated a pilot program of small grants to support innovative, community-based
activities for AIDS prevention and mitigation of the social and economic impact of the disease.
Table 6 shows the performance results for the AIDS prevention and mitigation projects.




                                                18 

TABLE 6 – HIV/AIDS Program Performance Against Key Indicators (Cumulative figures
for Active Projects With Significant Disbursements)1

     Performance              FY                         2004 FY          2004 Percent of Target
     Indicator                Performance                     Performance      Achieved
                              (Planned)                       (Actual)
     People         receiving 224,100                         320,509          143.0%
     HIV/AIDS
     prevention training
     Women as a percent            Minimum of 50%                  66.7%2                       133.4%2
     of those receiving
     HIV/AIDS training
     People     receiving          -                               8,167                        N/A
     HIV testing services
     Women as a percent            -                               90.8%                        N/A
     of those receiving
     HIV/AIDS training
     People     receiving          -                               15,545                       N/A
     AIDS      counseling
     services
     Women as a percent            -                               50.3%                        N/A
     of those receiving
     AIDS      counseling
     services
     People     receiving          -                               6,390                        N/A
     AIDS-related
     medical services
     Women as a percent            -                               18.1%                        N/A
     of those receiving
     AIDS-related
     medical services
     People     receiving          -                               17,236                       N/A
     AIDS-related
     financial or social
     services
     Women as a percent            -                               8.1%                         N/A
     of those receiving
     AIDS-related
     financial or social
     services
1
 Cumulative refers to the period from the starting date of the ADF project through the end of FY 2004.




                                                                19 

GOAL 2:   EXPAND LOCAL CAPACITY TO PROMOTE AND SUPPORT
GRASSROOTS, PARTICIPATORY DEVELOPMENT


Objective 1. Build self-supporting, sustainable, local community development agencies
that provide technical assistance and support to grassroots groups

In FY 2004, ADF continued the efforts it began in the previous year to develop the capacity of
its “Partner Organizations,” nongovernmental organizations (NGOs) dedicated to participatory
approaches to community economic and social development in each of the countries where the
Foundation operates. The cooperative agreements with Partner Organizations are performance-
based and renewable annually for up to five years. The Foundation is systematically building the
capacity of these organizations so that they can become sustainable and have diversified funding
sources.

The Partner Organizations help applicants that have passed the initial screening done by ADF’s
Country Representative to develop their project ideas into business plans with rigorous financial
analyses. After ADF awards a project grant, the Partner Organizations train the grantees in
financial management and participatory monitoring, and visit them regularly to monitor progress
and help rectify any implementation problems. The partner organizations also provide assistance
in procurement and preparation of quarterly financial and performance reports.

ADF transfers U.S. development expertise to its African Partner Organizations through training
and technical and managerial assistance to build their institutional capacity. It also monitors the
quality of their services and helps them plan and develop systems for attracting future funding
from other sources.

In FY 2004, ADF helped to build the capacity of Partner Organizations in 13 countries (Benin,
Botswana, Ghana, Guinea, Mali, Namibia, Niger, Nigeria, Senegal, Tanzania, Uganda, Zambia,
and Zimbabwe). ADF did not have a partner organization in Cape Verde (ADF had terminated
its relationship with a previous partner organization) or in the new program country of
Swaziland.


Objective 2. Promote community resource mobilization and reinvestment

In FY 2004, ADF continued its community reinvestment policy to mobilize local capital for
grassroots development projects and foster a culture of social responsibility. Although ADF
provides grants rather than loans, it encourages profitable business grantees to ultimately donate
the inflation-adjusted value of their grants to a development trust ADF helped to establish in
their country. The Community Reinvestment Grant (CRG) policy broadens and multiplies the
impact of ADF’s investment, builds business goodwill, and fosters the development of business
social responsibility.


Objective 3. Establish strategic partnerships with national and local governments, other
donor agencies, and the private sector to support sustainable grassroots development


                                                 20 

Strategic partnerships with African governments, other donors, and the private sector leverage
additional funds for ADF programs, demonstrate that the added value of ADF’s work is
recognized externally, and expand the influence of ADF’s strategies and program approaches.


   •	 Strategic partnerships with African governments and other donors. In these strategic
      partnerships, government or donors match ADF’s contribution to an ADF project, usually
      on a 1 to 1 basis.

   •	 Partnerships with the private sector in the U.S. and Africa. ADF consults with the
      private sector in Africa and the United States and to identify investment opportunities.
      ADF then helps develop market linkages between African producers and importers,
      particularly in the United States and other countries.


In FY 2004, ADF had active strategic partnerships that leveraged contributions in six African
countries -- Botswana, Cape Verde, Ghana, Mali, Nigeria (Jigawa State), and Swaziland that
leveraged funding contributions of $2,704,024. During the year, ADF obtained new strategic
partnership agreements in three other countries that will leverage funding contributions in future
years (Benin, Senegal, and Sao Tome).


Objective 4. Encourage African governments and other donors to increase utilization of
participatory development “best practices”

African governments are usually very interested in adopting new ways of fostering broad-based,
cost-effective, and sustainable economic development at the local community level. However,
there is often a gap between the desire and commitment of government agencies to implement
new approaches and the organizational capabilities and resources needed to carry them out.

ADF’s participatory development methods (PDM) actively involve all major stakeholders at
each stage of a project from conceptualization through development, implementation, and
monitoring. In addition, participants develop and implement systems that ensure transparency
and accountability in the use of resources and attainment of program objectives. As a result,
PDM empowers stakeholders while fostering more effective programs.


   •	 Application of PDM in ADF-funded projects. ADF helps African governments and
      local development organizations develop, coordinate, and implement participatory
      development strategies. The strategic partnerships that ADF develops with African
      governments and other donors have increased funding for the use of participatory
      development methods in grassroots development activities.              While participatory
      development methods are a common element throughout ADF’s programs, they are the
      primary strategic objective in a subset of projects that have emphasized participation in
      setting priorities for local infrastructure construction and implementing them.

       In Guinea and Niger, ADF helped the World Bank and government successfully
       demonstrate that PDM can play a vital role in developing local capacity to set priorities

                                                21 

       for investments in rural community infrastructure and fostering local ownership in
       construction and maintenance of the infrastructure. These projects have developed or
       maintained secondary roads, bridges, classrooms, and health facilities for rural people.

       In Nigeria, ADF and the Government of Jigawa State used PDM to help communities
       reach consensus on who should benefit from housing units built after a major flood and
       test different designs and low-cost construction methods for the houses.

   •	 Development communications. ADF also encourages use of participatory development
      methods and appropriate development strategies for underserved and disadvantaged
      populations through its learning and information dissemination activities. These include
      ADF publications and a website. ADF/W and Partner Organization staff also participated
      in various conferences.


REVISED STRATEGIC PLAN

In early FY 2005, ADF established new strategic goals and objectives based on
guidance from its reconfigured Board of Directors headed by a new chairman.
Building on ADF’s proven program model, the Board directed ADF to refocus its
efforts on the sectors and project structures that have the greatest impact on the
poor of Africa. This new focus resulted in a revised Strategic Plan:

ADF'S Strategic Goals and Objectives for FY 2005


       Goal I: Stimulate economic growth, job creation and higher incomes and improve
       the lives of the poor by supporting innovation, entrepreneurship and ownership, at
       the business and community level (Business Growth and Expansion)

              Objective 1: Trade and Investment – Enhance the growth of African-owned
              small and medium sized enterprises, improve their access to investment, and
              increase their participation in regional and international trade.

              Objective 2: Market Access for Agricultural Producers – Expand small farmer
              production of high-value crops, value-added processing of agricultural goods, and
              access to local and global markets.

              Objective 3: Social Enterprises – Promote innovative community-based
              solutions to critical social and economic needs of marginalized communities
              and peoples.

              Objective 4: Access to Capital – Create renewable pools of local capital to
              fund small businesses and community initiatives


       Goal II: Expand local institutional and financial capacities to support and sustain
       grassroots development (Resource Mobilization)

                                               22 

              Objective 1: Business Advisory Services - Build sustainable development
              organizations and business advisory services that provide technical assistance and
              training to enterprises and community groups

              Objective 2: Business Leaders Forum – Strengthen the capacity of African
              business and community leaders to foster entrepreneurship and social
              philanthropy and to model transparency and accountability

              Objective 3: Strategic Partnerships – Forge strategic partnerships with African
              governments, other donor agencies, and the private sector, to fund ADF programs
              that support enterprise and community development


              Objective 4: Learning and Dissemination – Promote and disseminate
              international and ADF best practices, lesions learned and successful models
              for African-driven development

       Goal III: Ensure that ADF obtains and maintains resources necessary to deliver
       pre-eminent program performance in Africa and in all its operational functions and
       responsibilities (Performance Efficiency)

              Objective 1: Outreach and Communications – Build a broad base of diverse,
              long-term loyalty and support from African grassroots communities, African
              businesses and entrepreneurs, African governments, USG agencies, development
              practitioners, corporations, foundations and other organizations

              Objective 2: Fundraising – Increase Congressional appropriations and leveraged
              contributions by 20 percent annually for the FY 2006 – 2010 planning period,
              resulting in an annual operating budget of $50 million by 2010

              Objective 3: Financial Administration and Compliance – Ensure ADF
              appropriated funds, nonappropriated funds and other contributed resources are
              managed judiciously, effectively and efficiently in compliance with ADF, USG
              and other contributors’ policies, regulations and requirements

              Objective 4: Internal Operations Support – Significantly enhance and
              streamline ADF’s customer service practices, human resource management,
              technology support services, workflow, facilities and equipment, to increase
              efficiency and effectiveness and further the mission and goals of ADF.

The three goals can be summarized as business growth and expansion, resource mobilization and
performance efficiency. While ADF has been measuring its performance in all these areas over
the past several years, the new plan concentrates ADF’s measurement efforts more specifically.

The new plan was also instrumental in developing performance measures for ADF’s first
Program Assessment Rating Tool (PART) exercise. ADF’s rating and performance measures
will be presented in the FY 2007 President’s Budget. ADF has significantly revised both its

                                               23 

annual and long-term performance goals to better reflect its new focus.

The 2005 PART exercise has helped ADF refine its program performance metrics to make it
easier to report to ADF stakeholders long-term program results and progress. Baselines for new
performance measures have been established with FY04 data. This will provide ADF
management and stakeholders with a clear picture of ADF’s progress in achieving its mission
and strategic goals.


ADF’s programs have a significant and measurable impact on improving the lives of Africa’s
poorest communities. Indeed, during the past four years, more rigorous efforts to enhance the
screening, design and monitoring of projects have helped the Foundation significantly improve
its performance measures.


FUTURE ACTIVITIES

ADF’s FY 2006 request will allow the Foundation to initiate program operations in two new
countries where the Foundation can make a significant contribution to broad-based economic and
social development by funding projects that follow a grassroots, participatory approach. New
countries currently under consideration include Kenya, Liberia, Sierra Leone, and the Sudan in
the first priority tier and Angola, Eritrea, and Mozambique in the second priority tier. At the
lower request level for FY 2005, ADF would not be able to begin operations in any new
countries.

The requested appropriation would be used to:

   •	 Increase the access of micro- and small- enterprises to credit, improved technologies,
      training and technical assistance, and other business development services;

   •	 Promote new export trade and investment opportunities (T&I) for African enterprises,
      especially those involving U.S. businesses and small-scale producers in Africa. The
      African Growth and Opportunity Act of 2000 (AGOA), which was passed with strong
      bipartisan support, specifically recognizes the important role of ADF in helping to
      integrate small-scale producers at the grassroots level into the global economy;

   •	 Support innovative, indigenous approaches to AIDS prevention and to mitigating the
      catastrophic financial, economic, and social problems that the epidemic causes in families
      and communities;

   •	 Build, sustainable local community development agencies that support participatory
      grassroots development;

   •	 Promote community reinvestment;

   •	 Establish additional strategic partnerships with national and local governments, donors,
      and the private sector; and


                                                24 

   •	 Encourage African governments and major development assistance organizations to
      increase use of participatory development methods.


ANALYSIS OF THE FINANCIAL STATEMENTS AND STEWARDSHIP
INFORMATION

ADF Quality Assurance, Internal Controls and Legal Compliance

During 2005, ADF underwent a thorough review of its grantee and cooperative agreement audit
program. Field audit guidelines were updated and clarified to ensure that audits of both ADF funds
and general purpose financial statements, in the case of ADF partners, are audited according to
U.S. Government Auditing Standards.

ADF has a full-time auditor on staff, who manages the audit program for project grantees,
determines which projects will be audited, defines the scope of work required for each audit,
evaluates the performance of contracted auditing firms, and authorizes payment to contracted
auditing firms. Based on the ADF auditor’s thorough review of grantee audit results, the
agency’s Audit Committee is informed of any material issues raised by the audit firms. These
issues are then tracked by the portfolio managers responsible for the grantees in question to
ensure timely follow up.


ADF’s grants database has a full time Grants Database and Operations Manager, who is the
primary person responsible for the continued integrity and security of all grantee administrative
and financial data reported. The financial information contained in the database is reconciled
monthly with the financial information contained in the agency’s core financial system, Oracle
Federal Financials.

Despite receiving clean opinions on all five financial statements over the past several years, ADF
has been cited as having a material weakness with regards to its financial system. Specifically,
the material weakness cited inadequacies related to the entering of transactions into the core
financial system and the lack of the U. S. Standard General Ledger at the transaction level. In FY
2005, both issues have been fully resolved with the implementation of Oracle Federal Financials
as ADF’s core financial system.



Comments on Financial Statements

ADF is pleased to report that in FY 2005 the Foundation continued to receive an unqualified opinion
on all five financial comparative statements from its independent auditors Leonard G. Birnbaum and
Company, and the USAID Office of the Inspector General. Since FY 2001, ADF has received an
unqualified opinion on the Balance Sheet, the Statement of Net Costs, the Statement of Net
Position, the Statement of Budgetary Resources, and the Statement of Financing.

In total, ADF’s financial statements indicate growth in programmatic activities from FY 2004.
The balance sheet shows that cash and other monetary assets have increased by more than 100

                                                 25 

percent in the past year. This increase represents the substantial growth in ADF’s strategic
partnerships with host country governments, a cornerstone of ADF’s program. The commitment
of African governments to provide up to 50 percent of grant funding is an indication that ADF’s
programs are effective. These donations, in turn, expand ADF’s ability to fund new grants, and
the $700 thousand increase in grant advances is evidence of such growth. Disbursements are also
up, increasing more than $5 million over the previous year, with the increase is related primarily
to grant disbursements. The increase can be attributed to both program growth and efficiencies in
the disbursement process.


Limitations of Financial Statements

ADF's principal financial statements have been prepared to report the financial position and
results of operations of the entity, pursuant to the requirements of 31 U.S.C. 3515 (b).

While the statements have been prepared from books and records in accordance with generally
accepted accounting principles (GAAP) for federal entities and the formats prescribed by the Office
of Management and Budget, the statements are in addition to the financial reports used to monitor
and control budgetary resources which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.




                                                  26 

                               LEONARD G. BIRNBAUM AND COMPANY, LLP
                                          CERTIFIED PUBLIC ACCOUNTANTS
                                                WASHINGTON OFFICE
                                                6285 FRANCONIA ROAD
                                              ALEXANDRIA, VA 22310-2510


                                                       703-922-7622
                                                  FAX: 703-922-8256
LESLIE A. LEIPER                                                                                   WASHINGTON, DC
LEONARD G. BIRNBAUM                                                                             SUMMIT, NEW JERSEY
DAVID SAKOFS                                                                               REDWOOD CITY, CALIFORNIA
CAROL A. SCHNEIDER
DORA M. CLARKE




                                   INDEPENDENT AUDITOR’S REPORT

        To the Board of Directors and the President,
        African Development Foundation:

                We have audited the African Development Foundation’s (ADF) Balance Sheets,
        Statements of Net Cost, Statements of Changes in Net Position, Statements of Budgetary
        Resources and Statements of Financing (Principal Financial Statements) as of, and for the years
        ended, September 30, 2005 and 2004; we have examined internal control over financial reporting
        in place as of September 30, 2005; and we have examined compliance with laws and regulations.

                In our opinion, ADF’s 2005 and 2004 Principal Financial Statements are presented fairly
        in all material respects.

                We found no instances of material weakness in the internal controls over financial
        reporting or instances of noncompliance with selected provisions of applicable laws and
        regulations involving ADF’s financial management system.

               Each of these conclusions is discussed in more detail below. This report also discusses
        the scope of our work.

                                  PRINCIPAL FINANCIAL STATEMENTS

                In our opinion, ADF’s 2005 and 2004 Balance Sheets, Statements of Net Cost,
        Statements of Changes in Net Position, Statements of Budgetary Resources, and Statements of
        Financing, including the notes thereto, present fairly, in all material respects, ADF’s financial
        position as of September 30, 2005 and 2004, and the net cost of operations, the changes in net
        position, and use of budgetary resources, and the use of financing, for the years then ended, in
        conformity with accounting principles generally accepted in the United States of America.




                                                           27 

                                     INTERNAL CONTROL

        We considered ADF’s internal control over financial reporting in order to determine our
auditing procedures for the purpose of expressing our opinion on the Principal Financial
Statements. We limited our internal control testing to those controls necessary to achieve the
objectives described in the Office of Management and Budget’s (OMB) Bulletin 01-02 as
amended, Audit Requirements for Federal Financial Statements. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial
Integrity Act of 1982, such as those controls relevant to ensuring efficient operations. The
objective of our audit was not to provide assurance on internal control. Consequently, we do not
provide an opinion on internal control.

       The objectives of internal control are to provide management with reasonable, but not
absolute, assurance that the following objectives are met:

       •	 transactions are properly recorded and accounted for to permit the preparation of
          reliable financial reports and to maintain accountability over assets;

       •	 funds, property, and other assets are safeguarded against loss from unauthorized
          acquisition, use, or disposition; and

       •	 transactions, including those related to obligations and costs, are executed in
          compliance with laws and regulations that could have a direct and material effect on
          the financial statements and other laws and regulations that the Office of Management
          and Budget (OMB), or ADF management have identified as being significant for
          which compliance can be objectively measured and evaluated.

       •	 data that support reported performance measures are properly recorded and accounted
          for to permit preparation of reliable and complete performance information.

        Our consideration of internal control would not necessarily disclose all matters of internal
control over financial reporting that might be reportable conditions. Under standards issued by
the American Institute of Certified Public Accountants, reportable conditions are matters coming
to our attention relating to significant deficiencies in the design or operation of internal control
that, in our judgment, could adversely affect ADF’s ability to record, process, summarize, and
report financial data consistent with the assertions of management in the financial statements.
Material weaknesses are reportable conditions in which the design or operation of one or more of
the internal control components does not reduce to a relatively low level the risk that errors or
irregularities in amounts, which would be material in relation to the financial statements being
audited may occur and not be detected within a timely period by employees in the normal course
of performing their assigned functions. Because of inherent limitations in internal controls,
misstatements, losses, or noncompliance may nevertheless occur and not be detected. However,
we noted no matters involving the internal control and its operations that we considered to be
material weaknesses as defined above.




                                                28 

        Finally, with respect to internal control related to performance measures reported in
Management’s Discussion and Analysis, we obtained an understanding of the design of
significant controls relating to the existence and completeness assertions and determined whether
those controls had been placed in operation as required by OMB Bulletin 01-02 as amended. Our
procedures were not designed to provide assurance on internal control over reported performance
measures, and, accordingly, we do not provide an opinion on such controls.

                     COMPLIANCE WITH LAWS AND REGULATIONS

        ADF’s management is responsible for complying with laws and regulations applicable to
ADF. As part of obtaining reasonable assurance about whether the financial statements are free
of material misstatement, we performed tests of ADF’s compliance with certain provisions of
laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statements amounts, and certain other laws and regulations specified
in OMB Bulletin 01-02 as amended, including the requirements referred to in FFMIA. We
limited our tests of compliance to these provisions, and we did not test compliance with all laws
and regulations applicable to ADF. The objective of our audit of the Principal Financial
Statements, including our tests of compliance with selected provisions of applicable laws and
regulations, was not to provide an opinion on overall compliance with such provisions.
Accordingly, we do not express such an opinion.

        Material instances of noncompliance are failures to follow requirements or violations of
prohibitions in statutes and regulations, which cause us to conclude that the aggregation of the
misstatements resulting from those failures or violations is material to the financial statements or
that sensitivity warrants disclosure thereof.

       The results of our tests of compliance with the laws and regulations described in the
preceding paragraph, exclusive of FFMIA, disclosed no instances of noncompliance with laws
and regulations that are required to be reported under Government Auditing Standards and
OMB-Bulletin 01-02 as amended.

        Under FFMIA, we are required to report whether the ADF’s financial management
systems substantially comply with the federal financial management system requirements,
applicable accounting standards, and the United States Government Standard General Ledger at
the transaction level. To meet this requirement, we performed tests of compliance with FFMIA
section 803(a) requirements. The results of our tests disclosed no instances where the ADF’s
financial management systems did not substantially comply with the Federal financial
management system requirements, applicable Federal accounting standards, or the United States
Government Standard General Ledger at the transaction level.

        We noted one instance in which ADF did not fully comply with the requirements of the
Federal Information Security Management Act of 2002 (FISMA). We have communicated this
to the ADF’s management in a separate letter dated November 4, 2005.




                                                 29 

                         RESPONSIBILITIES AND METHODOLOGY

ADF management has the responsibility for:

       •	 preparing the Principal Financial Statements and other accompanying information in
          conformity with accounting principles generally accepted in the United States of
          America;

       •	 establishing and maintaining effective internal control; and

       •	 complying with applicable laws and regulations.

       Our responsibility is to express an opinion on these Principal Financial Statements based
on our audit. Auditing standards generally accepted in the United States of America require that
we plan and perform the audit to obtain reasonable assurance about whether the Principal
Financial Statements are free of material misrepresentation and presented fairly in accordance
with accounting principles generally accepted in the United States of America. We considered
ADF’s internal control for the purpose of expressing our opinion on the Principal Financial
Statements referred to above and not to provide an opinion on internal control. We are also
responsible for testing compliance with selected provisions of applicable laws and regulations
that may materially affect the financial statements.

       In order to fulfill these responsibilities, we

       	 examined, on a test basis, evidence supporting the amounts and disclosures in the
          Principal Financial Statements;

       	 assessed the accounting principles used and significant estimates made by
          management;

       	 evaluated the overall presentation of the Principal Financial Statements;

       	 obtained an understanding of the internal controls over financial reporting by
          obtaining an understanding of the agency’s internal control, determined whether
          internal controls had been placed in operation, assessed control risk, and performed
          tests of controls;

       	 obtained an understanding of the internal controls relevant to performance measures
          included in Management’s Discussion and Analysis, including obtaining an
          understanding of the design of internal controls relating to the existence and
          completeness assertions and determined whether they had been placed in operations;

       	 obtained an understanding of the process by which the agency identifies and evaluates
          weaknesses required to be reported under FMFIA and related agency implementing
          procedures;



                                                   30 

       	 tested compliance with selected provisions of laws and regulations that may have a
          direct and material affect on financial statements;

       	 obtained written representations from management; and

       	 performed other procedures, as we considered necessary in the circumstances.

        Our audits were conducted in accordance with auditing standards generally accepted in
the United States of America, the standards applicable to financial audits contained in
Government Auditing Standards and OMB Bulletin 01-02 as amended. We believe that our
audits provide a reasonable basis for our opinion.

       The Management’s Discussion and Analysis is not a required part of the Principal
Financial Statements, but are supplementary information required by OMB Circular A-136,
Financial Reporting Requirements, and the Federal Accounting Standards Advisory Board. We
have applied certain limited procedures, which consisted principally of inquiries of management
regarding the methods of measurement and presentation of the supplementary information.
However, we did not audit he information and express no opinion on it.

         This report is intended for the information of the Inspector General of U.S. Agency for
International Development and management of the African Development Foundation. This
restriction is not intended to limit the distribution of this report, which is a matter of public
record.




                                            Leonard G. Birnbaum and Company, LLP

Alexandria, Virginia
November 4, 2005




                                                31 

                       AFRICAN DEVELOPMENT FOUNDATION 

                         Fiscal Year Ended September 30, 2005 


                              Status of Prior Year Audit Finding

          FY 2004 Audit Findings                          Current Status
1.	 The United States Standard General 1. The United States Standard General Ledger
    Ledger has not been implemented at the was implemented at the transaction level by
    transaction level.                     ADF as of March 31, 2005. This finding is
                                           considered closed.

2.	 Because of inadequacies in the system        2. ADF contracted with the Department of
    used     by    the    General     Services   Interiors’ National Business Center in FY 2004
    Administration     to     process   ADF's    to correct this issue. The prior year’s finding
    Transactions, significant elements of the    did not have to do with ADF’s internal record
    financial statements including, but not      keeping. During FY 2005, substantially all of
    limited to, grant advances, prepayments      the financial statement items that previously
    franchise    fund,    accounts    payable,   used sources other than the general ledger are
    undelivered       orders,      unexpended    now taken directly from the general ledger.
    appropriations, and expenses; were           This finding is considered closed.
    developed from sources other than general
    ledger.




                                                 32 

                                       African Development Foundation
                                             BALANCE SHEETS
                                      As of September 30, 2005 and 2004
                                                                                                     As Restated
                                                                                         FY 2005       FY2004
ASSETS

Intragovernmental:
     Fund Balance with Treasury (Note 2)                                             $23,953,010     $25,073,947
Total Intragovernmental                                                               23,953,010      25,073,947

Cash and Other Monetary Assets (Note 2)                                                  3,851,678     1,254,368

General Property, Plant and Equipment – Net (Note 4)                                      436,535        497,932

Advances and Prepayments(Note 3)                                                         3,847,050     3,615,081

TOTAL ASSETS                                                                         $32,088,273     $30,441,328


LIABILITIES

    Accounts Payable    (Note 5)                                                     $    284,769    $ 1,320,267
    Accrued Payroll     (Note 5)                                                          107,869        101,954
    Accrued Leave       (Note 5)                                                          193,158        207,309
    Other Liabilities   (Note 5)                                                                -        133,578

TOTAL LIABILITIES                                                                    $ 585,796       $ 1,763,108

NET POSITION
   Unexpended Appropriations                                                          27,204,690      27,379,686
   Cumulative Results of Operations                                                    4,297,787       1,298,534
   TOTAL NET POSITION                                                                 31,502,477     $28,678,220

TOTAL LIABILITIES AND NET POSITION                                                   $32,088,273     $30,441,328




                              The accompanying notes are an integral part of these statements.

                                                            33
                                   African Development Foundation
                                   STATEMENTS OF NET COST
                          For the Years Ended September 30, 2005 and 2004

                                                                                                As Restated
                                                                                   FY 2005        FY2004
                                                                                    Grant          Grant
                                                                                    Program        Program

PROGRAM COSTS

   Program Expenses                                                               $12,074,695   $ 8,265,392

   Operating Expenses – Public                                                      7,439,268     7,686,746

   Operating Expenses – Intragovernmental                                             140,630       177,003

TOTAL PROGRAM COSTS                                                                19,654,593    16,129,141

NET PROGRAM COSTS                                                                  19,654,593    16,129,141

NET COST OF OPERATIONS                                                            $19,654,593   $16,129,141




                           The accompanying notes are an integral part of these statements.

                                                         34
                                    African Development Foundation 

                          STATEMENTS OF CHANGES IN NET POSITION 

                           For the Years Ended September 30, 2005 and 2004 


                                                                                                   As Restated
                                                         FY 2005                                     FY 2004
                                          Cumulative Results   Unexpended             Cumulative Results   Unexpended
                                            of Operations     Appropriations            of Operations    Appropriations

Beginning Balances                                $ 1,298,534         $27,379,686                  $829,156     $25,349,986

Budgetary Financing Sources

   Appropriations Received                                             19,000,000                                18,689,000
   Rescission & Cancelled Resources                                      (156,189)                               (1,053,888)
   Appropriations Used                             19,018,807         (19,018,807)                15,605,411    (15,605,412)
   Nonexchange Revenue                              3,494,409                                        816,105
Other Financial Services
   Imputed Financing                                   140,630                                      177,003

Total Financing Sources                            22,653,846             (174,996)               16,598,519      2,029,700

Net Cost of Operations                            (19,654,593)                                   (16,129,141)

Net Change                                           2,999,253            (174,996)                 469,378       2,029,700

Ending Balances                                    $ 4,297,787        $27,204,690                $ 1,298,534    $27,379,686




                              The accompanying notes are an integral part of these statements.

                                                            35
                                 African Development Foundation
                    COMBINED STATEMENTS OF BUDGETARY RESOURCES
                        For the Years Ended September 30, 2005 and 2004
                                                                                                   As Restated
                                                                                      FY 2005        FY2004

BUDGETARY RESOURCES

    Budget Authority – Appropriation                                                $22,494,462    $19,505,104
    Unobligated Balance Brought Forward, October 1                                    5,669,528      6,126,195

    Adjustments:
      Recoveries of Prior Years’ Obligations                                          2,595,184      1,534,345
      Rescission Current Year                                                          (152,000)      (110,265)
      Permanently not Available                                                          (4,189)      (759,840)

TOTAL BUDGETARY RESOURCES                                                           $30,602,985    $26,295,539

STATUS OF BUDGETARY RESOURCES

    Obligations Incurred – Current Period                                            24,803,215     20,626,011

    Unobligated Balances – Available (Note 2)                                         4,645,506       306,298

    Unobligated Balances – Unavailable (Note 2)                                       1,154,264      5,363,230

TOTAL STATUS OF BUDGETARY RESOURCES                                                 $30,602,985    $26,295,539

RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:

Obligated Balance, Net – Beginning of Period                                         20,525,209     17,115,085

Obligated Balance, Net – End of Period
    Accounts Payable                                                                    392,638      1,422,221
    Undelivered Orders                                                               21,611,780     19,102,988

Outlays:
    Disbursements                                                                    20,728,822     15,498,797
    Collections                                                                            (500)             -
Net Outlays                                                                         $20,728,322    $15,498,797




                             The accompanying notes are an integral part of these statements.

                                                           36
                                     African Development Foundation
                                    STATEMENTS OF FINANCING
                            For the Years Ended September 30, 2005 and 2004

                                                                                                     As Restated
                                                                                       FY 2005          FY2004

RESOURCES USED TO FINANCE ACTIVITIES

Obligations Incurred                                                                 $24,803,215     $20,626,011

   Less: Downward Adjustments of Prior Years’ Obligations                             (2,595,184)     (1,534,344)
   Net Obligations                                                                    22,208,031      19,091,667

   Financing Imputed for Cost Subsidies                                                  140,630         177,003

Net Other Resources Used to Finance Activities                                           140,630         177,003

Total Resources Used to Finance Activities                                            22,348,661      19,268,670

RESOURCES USED TO FINANCE ITEMS NOT PART
  OF THE NET COST OF OPERATIONS

   Change in Budgetary Resources not yet Provided (Increase)                          (2,740,128)      (3,036,341)
   Resources that Finance the Acquisition of Assets                                      (72,630)        (239,924)
   Total Resources that do not Fund Net Costs                                         (2,812,758)      (3,276,265)

Total Resources Used to Finance Net Cost of Operations                                19,535,903      15,992,405

Costs that will not Require Resources in this Period:
  Increase (decrease) in Accrued Annual Leave Liability                                   (14,151)        23,906
  Total Costs that will Not Require Resources in this Period                              (14,151)        23,906

Components not Requiring Resources

   Loss/Gains on the Disposal of Assets                                                        -         (41,404)
   Depreciation                                                                          132,841         154,234

Total Costs that do not Require Resources                                                132,841         112,830

NET COST OF OPERATIONS                                                               $19,654,593     $16,129,141




                              The accompanying notes are an integral part of these statements.

                                                            37
                               African Development Foundation 

                               Notes to the Financial Statements 

                                   As of September 30, 2005 



Note 1.       Summary of Significant Accounting Policies

   A. Reporting Entity

   The African Development Foundation (“ADF” or “the Foundation”) is a government-owned
   corporation established by Congress under the African Development Foundation Act in 1980
   and began operations in 1984. The Foundation is the principal agency of the U.S. Government
   that supports community-based, self-help initiatives that alleviate poverty and promote
   sustainable economic and social development in Africa at the grassroots level. The
   Foundation’s headquarters are in Washington, D.C. ADF maintains partnerships with local
   organizations, staffed with African professionals, in each of the countries in which it operates.
   Over the past 21 years, the Foundation has funded more than 1600 projects in 34 African
   countries.

   B. Basis of Presentation

   The accompanying financial statements have been prepared on the accrual basis to report the
   financial position and results of operation in accordance with the concepts and standards
   contained in the Statements of Federal Financial Accounting Standards, as required by the
   Chief Financial Officers Act of 1990. These statements have been prepared from the books and
   records of the Foundation in accordance with the form and content for federal financial
   statements specified in the Office of Management and Budget (OMB) in OMB Circular No. A
   136, Financial Reporting Requirements, and the Foundation’s accounting policies, which are
   summarized in this note.

   C. Basis of Accounting

   Transactions are recorded on an accrual basis. Grants are recorded when obligated and
   expenses are recognized when the funds are expended, without regard to receipt or payment of
   cash. The preparation of the financial statements in conformity with generally accepted
   accounting principles requires management to make estimates and assumptions that affect the
   reported amounts of assets and liabilities, disclosure of contingent assets and liabilities at the
   date of the financial statements, and the reported amounts of grants and expenses during the
   reporting period. Actual results will invariably differ from those estimates.

   D. Fund Balances with Treasury and Cash

   The Foundation maintains the majority of its funds in the U.S. Treasury. These are amounts for
   which the Foundation is authorized to make expenditures and pay liabilities. In addition,
   commercial, noninterest bearing accounts (in local currencies) are maintained with Barclays
   Bank of Botswana, Citibank Nigeria, and Banco Comercial do Atlantico in Cape Verde,


                                                38 

Standard Chartered Bank in Ghana, Ecobank in Mali, Citibank and Zenith Bank in Nigeria,
First National Bank of Swaziland in Swaziland, and Standard Chartered Bank in Zambia to
process grant funds for those countries. Governments with whom ADF has entered Strategic
Partnerships deposit donations into these accounts. In general, grants are funded equally with
appropriated funds and donated funds. ADF controls all disbursements from these accounts.
During FY 2005, an account at Ecobank in Guinea was closed, and all remaining funds were
returned to the U.S. Treasury. Similarly a dollar account held at Deutsche was closed with
remaining funds returned to the Treasury.

E. Foreign Currencies

The Foundation awards grants to private organizations in Africa. Most of the grants are
denominated in local currencies to facilitate accounting by the recipient organizations.
Depending on the nature of the transaction, foreign currencies are translated into dollars at the
actual exchange rate received by the Foundation when the transaction is made or at the
prevailing exchange rate at the beginning of the month in which the transaction occurred. The
value of obligations incurred by the Foundation in foreign currencies varies from time to time
depending on the current exchange rate. The Foundation adjusts the value of its obligations at
the end of each quarter during the year to reflect the prevailing exchange rates. Downward
adjustments to prior year obligations based on favorable foreign currency exchange rates will
be made available for obligation if the adjustment occurs within the Foundation’s authorized
two year funding period. Upward adjustment to prior year obligations based on unfavorable
foreign currency exchange rate with the U.S. dollar will be made from funds made available for
upward adjustments, if any, or from currently available funds.

F. Grant Accounting

The Foundation disburses funds in advance to grantees to cover their projected expenses over a
three-month period. Grantees report to the Foundation periodically on the actual utilization of
these funds. For purposes of these financial statements, the Foundation treats disbursements to
grantees as advances. The advance is reduced when the grantee reports expenditures. The total
grant advance is the total amount disbursed to the grantee less the total expended for open
(nonexpired) grants as of the reporting date. In order to ensure timeliness in reporting grantee
expenditures, the Foundation will use estimates to complete to calculate the last quarter’s
grantee expenditures based on historical expenditure trends since 1996 and disbursement
activity funding that quarter’s activity. The actual expenditures adjustments will be reported in
the following quarter’s financial statements. Once a grant has closed (expired or cancelled) any
excess disbursement is reclassified as an Accounts Receivable.

G. Travel Advances

Advances are given to ADF employees for official travel. Travel advances are recorded as
expenses upon receipt of employee travel vouchers.




                                             39 

H. Property, Plant and Equipment, Net

The space in which the Foundation operates is leased by the Foundation through a multi–year
lease. Equipment is depreciated using the straight–line method over useful lives, which is
estimated at five years. Equipment with an acquisition cost of less than $5,000 or less than two
years of life is expensed when purchased.

I. Accounts Payable

Accounts payable represent amounts owed to nonfederal entities, primarily commercial
vendors, for goods and services received by ADF.

J. Contingencies

The Foundation is a party in various administrative legal actions and claims brought by or
against it. According to the Foundation’s legal counsel, the likelihood of unfavorable outcomes
for all these legal actions and claims is remote. In the opinion of the Foundation’s
management, the ultimate resolution of these proceedings, actions, and claims will not
materially affect the financial position or results of operations of the Foundation.

K. Annual, Sick, and Other Leave

Annual, sick and other leave is accrued as it is earned and the accrual is reduced as leave is
taken. Each year, the Foundation calculates the value of the accrued annual leave at the end of
the year based on current pay rates. Funding for payment of accrued annual leave at the end of
the year will be taken from future financing sources. Sick leave and other types of nonvested
leave are expensed as taken.

L.   Retirement Plan

The Foundation’s employees participate in the Civil Service Retirement System (CSRS) or the
Federal Employees Retirement System (FERS). The Foundation makes statutory contributions
to the Office of Personnel Management for employees enrolled in each plan. The Foundation
does not report accumulated assets, plan benefits or unfunded liabilities, if any, attributable to
its employees. The Office of Personnel Management reports such amounts.

M. Trust Fund

The Foundation maintains a Trust Fund with the U.S. Treasury in accordance with its gift
authority.




                                             40 

   N. Restatement

   Fiscal year 2004 statements have been restated to reflect the effect of a prior period adjustment.
   See Note 8.


Note 2.       Fund Balance with Treasury

   A. Fund Balances and Funds Held Outside Treasury

   ADF’s Fund Balance with Treasury and Funds Held Outside Treasury as of September 30,
   2005 and 2004 are summarized below:

                                                                    FY 2005            FY 2004

                      Appropriated Funds                        $     23,936,136   $ 25,057,584

                      Trust Fund                                       16,874             16,363


                      Total Fund Balance with Treasury          $     23,953,010   $ 25,073,947

                      Deutsche Bank Trust Company                            -           96,952
                      Ecobank of Guinea                                      -          133,578
                      Barclays Bank of Botswana                      1,066,426          740,773
                      Standard Chartered Ghana                       1,891,050                -
                      Citibank Nigeria                                  39,013           39,013
                      First National Bank Swaziland                    193,407                -
                      Zenith Bank Nigeria                              151,515                -
                      Standard Chartered Zambia                        152,869                -
                      Cape Verde                                       357,398          244,052

                      Total Funds Held Outside Treasury             $3,851,678     $ 1,254,368

                      Total                                     $ 27,804,688       $ 26,328,315




                                                 41 

   B. 	 Status of Fund Balance With and Outside Treasury              FY 2005           FY 2004

                       Unobligated Balance

                               Available                         $ 4,645,506              306,298
                               Unavailable                         1,154,264            5,363,230

                       Obligated Balance not yet Disbursed       $22,004,918           20,658,787

                       Total                                     $    27,804,688   $     26,328,315



Note 3.         Advances and Prepayments

   ADF’s advances (see Note 1F and 1G) and prepayments as of September 30, 2005 and 2004 are
   summarized below:

                                                                     FY 2005            FY2004

                       Grants                                   $ 3,471,739        $ 2,804,388
                       Travel                                        42,323             98,130
                       Prepayments                                  332,988            712,563

                       Total                                    $ 3,847,050        $ 3,615,081

Note 4.         Property, Plant and Equipment, Net

   Equipment is capitalized at cost if the initial unit acquisition cost is $5,000 or more and service
   life is two years or more. Equipment with an acquisition cost of less than $5,000 or less than
   two years of life is expensed when purchased.

          ADF’s property, plant and equipment as of September 30, 2005 and 2004

                                                                     FY 2005           FY 2004      	

                Equipment, at cost                              $ 1,365,114        $ 1,290,086
                Accumulated Depreciation                           (928,579)          (792,154)
                Equipment, net                                  $   436,535        $   497,932




                                                 42 

Note 5.       Accounts Payable and Other Liabilities

   Accounts payable represent amounts owed to nonfederal entities, primarily commercial vendors
   for goods and services received by ADF, and accrued employee payroll and annual leave.

                                                                        FY 2005            FY 2004

                       Commercial vendors                           $     284,769      $    1,320,267
                       Government of Republic of Guinea                         -             133,578
                       Accrued employee payroll and leave                 301,027             309,263


                       Total                                        $     585,796      $    1,763,108


Note 6.       Leases
   The space in which the Foundation Headquarters operates is leased by the Foundation through a
   multi-year lease until April 30, 2008. The total amount of funding commitment is detailed in
   Table 1.
   ADF also enters into year-to-year leases in the countries with established Resident
   Representative offices.



                                        TABLE 1 – ADF Headquarters’
                                Space Lease – Total Future Payment Due


                               Fiscal                       Dates                    Amount
                               Year
                           Year 1         October 1, 2005 – September 30,            $384,159
                                          2006
                           Year 2         October 1, 2006 – September 30,            $391,842
                                          2007
                           Year 3         October 1, 2007 – April 30, 2008           $232,874


                               TOTAL                                                $1,008,875




                                                    43 

Note 7. 	    Explanation of Differences Between the Statement of Budgetary Resources and
             the Budget of the United States Government.

   The 2007 Budget of the United States Government, with the Actual Column completed for
   fiscal year 2005, has not yet been published as of the date of these financial statements. The
   Budget is currently expected to be published and delivered to the Congress in February 2006.
   The 2006 Budget of the United States Government, with the Actual Column completed for
   fiscal year 2004, has been reconciled.




                                               44 

Note 8.       Restatements.

   The financial statements for FY 2004 have been restated to reflect material corrections made in
   FY 2005. ADF completed the implementation of a new, fully compliant core financial system
   in FY 2005. The implementation not only eliminated a material weakness in internal controls
   that ADF’s auditors have cited over previous years, but it also indicated account balances that
   needed to be corrected. Certain balances in all five statements have been restated. The
   restatement had an immaterial effect on both the Balance Sheet and the Statement of Net Cost.
   Regarding overall net position, cumulative results of operations were decreased by $1.7 million
   while unexpended appropriations increased by $800 thousand. The need for the restatement
   resulted from the lack of a core financial system. Because of inadequacies in the financial
   systems previously used to process ADF's transactions, significant elements of the financial
   statements including, but not limited to, grant advances, prepayments franchise fund, accounts
   payable, undelivered orders, unexpended appropriations, and expenses; were developed from
   sources other than general ledger. Over the years, material errors in account balances
   accumulated and restatement became necessary.




                                               45 

46
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
